OCKLE

egal Briefs E-Mail Address:
L 6 Est. 1923 contact@cocklelegalbriefs.com

Cc

  

2311 Douglas Street
Omaha, Nebraska 68 102-1214

1-800-225-6964 Web Site
(402) 342-283 1 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-942

LAUREL ZUCKERMAN, AS ANCILLARY ADMINISTRATRIX OF THE ESTATE OF ALICE LEFFMAN
Petitioner,

v.
THE METROPOLITAN MUSEUM OF ART,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that | did, on the 24th day of February, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the Amicus Curiae Brief of B’nai B’rith International, Raoul
Wallenberg Centre for Human Rights, Simon Wiesenthal Center, et al., as Amici Curiae, in Support of Petitioner Zuckerman
in the above entitled case. All parties required to be served have been served by third-party commercial carrier for delivery
within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

JENNIFER A. KREDER* AMBASSADOR DOUGLAS KMIEC.
Salmon P. Chase College of Law Pepperdine University Schoo! of Law
Northern Kentucky University 24255 Pacific Coast Hwy.
Nunn Hall, Nunn Drive Malibu, CA 90263
Highland Heights, KY 41042 T: (310) 506-4676
T: (859) 572-5889
F: (859) 572-5342 EDWARD M. GAFFNEY
Jkreder!@nku.edu 11498. La Jolla Ave.
*Counsel of Record Los Angeles, CA 90035

T: (323) 932-8333
Counsel for Amicus Curiae Edward.gafiney@valpo.edu

Subscribed and sworn to before me this 24th day of February, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska : Le Oud rar ,
My Commission Expires Nov 24, 2020 .

Notary Public Affiant 39557

 

 
Counsel for Petitioner
Mary-Christine Sungaila

Haynes and Boone LLP

600 Anton Blvd., Suite 700
Costa Mesa, CA 92626

(949) 202-3000
MC.Sungaila@haynesboone.com

Counsel for Respondent

David W. Bowker

Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Avenue, NW
Washington, DC 20006

(202) 663-6000
david.bowker@wilmerhale.com
